No. 20-1183
IN THE SUPREME COURT
OF THE UNITED STATES

Tri-State Zoological Park of Western Maryland, Inc.,
Animal Park, Care & Rescue, Inc., and Robert L. Candy
Petitioners,
v.
People for the Ethical Treatment of Animals, Inc.
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
REPLY BRIEF IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

LYNN T. KRAUSE
Counsel of Record
KAGAN, STERN, MARINELLO
& BEARD, LLC
238 West Street
Annapolis, MD 21401
443-994-0403
krause@kaganstern.com

1

INTRODUCTION
PETA’s Brief in Opposition to the Petition for
Certiorari does not rebut the Zoo’s arguments, but
instead reinforces them. PETA repeatedly
mischaracterizes the District Court’s determination
that PETA was injured as having been a factual
determination, but does not rebut the fundamental
contention of the Zoo—that any alleged injury to
PETA was the result of PETA’s own voluntarily
adopted mission statement, and the voluntary
pursuit of that mission statement due to PETA’s
ideological concerns. It is undisputed that the only
“requirement” that PETA faced was a result of
PETA’s voluntarily adopted mission statement, and
that its only injury was due to its ideological
concern with the subject matter and its consequent
voluntary expenditures.
PETA further attempts to cast aspersions and
unfair prejudice upon the Zoo by reciting the
erroneous factual findings of the District Court,
and implies that the Zoo did not take issue with the
findings of fact below. This is simply not true.
However, the Zoo does recognize that this Court is
not generally concerned with factual review, and
therefore did not continue its factual arguments
before this Court.

2
Finally, despite the clear departures of the
lower courts from this Court’s precedents, PETA
makes no attempt to reconcile the aberrant
holdings of the lower courts with the law as set
forth by this Court. Instead, the essence of PETA’s
argument appears to be that because many of the
lower circuits have departed so far from this
Court’s precedents, that this Court should simply
accept the present state of affairs. This is exactly
the problem that the Zoo addresses in its Petition.
Various lower courts have embraced exactly the
wrong interpretation of Havens Realty v. Coleman,
455 U.S. 363 (1982), and have ignored the
requirements of concrete and discernible injury set
forth by this Court in Sierra Club v. Morton, 405
U.S. 727 (1972), Lujan v. Defenders of Wildlife, 504
U.S. 455 (1992), and Summers v. Earth Island
Institute, 555 U.S. 488 (2009).
PETA’S MISLEADING RECITATION OF
PURPORTED FACTS
PETA misleadingly states that the Zoo did
not challenge the findings of fact of the District
Court below. The Zoo recognizes that PETA’s
lengthy recitation of the District Court’s findings of
fact is generally irrelevant to the legal question
presented, and is designed to be prejudicial rather
than to illuminate any point of law that would be of

3
interest to this Court. However, in light of PETA’s
statements, the Zoo is duty bound to rebut the idea
that the Zoo agreed with the District Court’s
findings of fact or did not challenge those findings
on appeal.
Instead, as is quite clear from a reading of
the Opinion of the Fourth Circuit Court of Appeals,
the Zoo challenged both the exclusion of the Zoo’s
expert witness Dr. Duncan, who served as the Zoo’s
regular veterinarian, and the admissibility of the
testimony of Dr. Haddad, PETA’s “star witness” in
the case below. But for the exclusion of the Zoo’s
expert Dr. Duncan, which left the testimony of
PETA’s expert Dr. Haddad unopposed, the factual
picture presented below would have been vastly
different. In fact, if the law had been properly
applied by the District Court, Dr. Duncan would
have testified for the Zoo and Dr. Haddad’s
testimony on behalf of PETA would have been
excluded. This would almost certainly have led to a
completely different result at trial.
The Fourth Circuit rejected the Zoo’s
arguments, but it is irresponsible for PETA to
claim that the Zoo did not dispute any of the factual
findings below.
As for the purported uncontradicted facts
related to the alleged injury to PETA for purposes
of organizational standing, there could be no valid
factual finding of injury because PETA never

4
passed the threshold of showing that its alleged
injuries were legally cognizable. A voluntary injury
sustained as a result of voluntary intermeddling,
driven by a voluntarily chosen mission statement,
is not a cognizable injury with respect to
organizational standing. This is a matter that
PETA never adequately addresses in its Brief.
Instead, PETA mischaracterizes the wrong
application of the law to the facts in this case as
being nothing more than a finding of fact. Nothing
could be further from the truth.
PETA DOES NOT ATTEMPT TO JUSTIFY
THE RULINGS OF THE LOWER COURTS,
WHICH ARE CLEARLY CONTRARY TO THE
HOLDINGS OF THIS COURT
While PETA is quite verbose on the subject
of whether certain lower courts have applied
Havens Realty, supra, in a manner that supports
PETA’s position, PETA does not even attempt to
show that those applications of Havens Realty
conform with the law as set forth by this Court.
Instead, PETA continues to insist that it was
“injured” within the meaning of Havens Realty,
supra, while ignoring the fact that all of its alleged
injuries were due to its voluntarily adopted mission
statement and its voluntary expenditures on
subject matter that it viewed as ideologically

5
important. PETA never attempts to dispute the
voluntary nature of its so-called injuries or
expenditures, because there is no colorable dispute
there. Instead, PETA engages in more language
games, and attempts to turn the lower courts’
erroneous application of the law to the facts into
“findings of fact”, while also continuing to insist
that it was “required” to act, while not adequately
addressing the fact that any perceived requirement
was a result of its voluntarily chosen mission
statement.
Instead, PETA simply brushes aside the
dissents and doubts raised by some of the most
esteemed judges of the lower courts, including
Judge Jacobs, Judge Millette, Judge Ikuta, and
Judge Boasberg. It is a rare occasion indeed when
so many jurists openly express their frustration
with the current state of the law in their written
opinions, and the Zoo submits that those jurists are
doing so for good reason. The present state of
jurisprudence as to organizational standing in the
lower courts, especially as to the application of
Havens Realty, is in chaos. There is no consistency
even within circuits. (See, e.g., the Fifth Circuit
decisions in Ass'n for Retarded Citizens of Dallas v.
Dallas County Mental Health & Mental
Retardation Ctr. Bd. of Trustees, 19 F.3d 241 (5th
Cir.1994),
and
Association
of
Community
Organizations for Reform Now v. Fowler, 178 F.3d

6
350 (5th Cir. 1999), the decisions within the D.C.
Circuit in Am. Anti-Vivisection Society v. USDA,
946 F.3d. 615 (D.C. Cir. 2019) and Ctr. for Resp.
Science v. Gottlieb (II), 346 F.Supp.3d 29 (D.C. Dist.
Ct. 2018), and of course, the disjunct between the
instant case and Lane v. Holder, 703 F.3d. 668 (4th
Cir. 2012), cert. denied 571 U.S. 1195 (2014). One
cannot even discern a predictable jurisprudence
within the same circuits given the present state of
affairs, let alone reconcile those decisions with the
rulings of this Court. All seems to have become
arbitrary, and litigants on either side can only hope
they draw the right judge or the right appellate
panel. This is not how the law is supposed to
function.
PETA SHOULD WELCOME CLARITY ON
THIS ISSUE, RATHER THAN EVADING IT
One would think that a party in PETA’s
position, often pursuing nationwide litigation,
would urge this Court to grant certiorari to affirm
PETA’s position for once and for all. Of course
PETA does not want this Court to grant certiorari,
because its position is so plainly wrong as a matter
of law. Instead, PETA and other like-minded
organizations will quite likely continue a strategy
of piecemeal litigation throughout the various
circuits, wrongly invoking Havens Realty time and

7
again, because that strategy has been effective to
date and has already created a large body of
pernicious case law in the lower circuits. A
clarification by this Court, to be applied
nationwide, would be in the public interest.
PETA openly admits that it believes it
should be allowed to pursue its present litigation
strategies nationwide, based upon no more than its
voluntarily chosen mission statement, without
showing any particularized injury to itself as an
organization. This position brings to mind the wise
words of C.S. Lewis, that “[o]f all tyrannies, a
tyranny sincerely exercised for the good of its
victims may be the most oppressive. It would be
better to live under robber barons than under
omnipotent moral busybodies. The robber baron's
cruelty may sometimes sleep, his cupidity may at
some point be satiated; but those who torment us
for our own good will torment us without end, for
they do so with the approval of their own
conscience.”
For the reasons stated above, the Petition
should be granted.

8

Respectfully Submitted,

_/s/Lynn T. Krause_____
LYNN T. KRAUSE
Counsel of Record
for Petitioners
KAGAN, STERN,
MARINELLO & BEARD, LLC
238 West Street
Annapolis, MD 21401
443-994-0403
krause@kaganstern.com
June 23, 2021

